         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The National Nuclear Security
Administration’s B61 Spin Rocket
Motor Project




DOE/IG-0740                      September 2006
                                 Department of Energy
                                        Washington, DC 2 0 5 8 5

                                            September 26, 2006


MEMORANDURI FOR

FROM:
                           1nspictor General

SUBJECT                    INFORMATION: Audit Report on "The National Nuclear
                           Security Administration's B61 Spin Rocket Motor Project"

BACKGROUND

The Department cf Energy's Sandia National Laboratories are refurbishing the Spin
Rocket Motor, a 1:rime component of the B61 nuclear weapon system. Both the originai
motor produced i2 i906 and the version last produced in 1991 are the subjects of the
refurbishment. Rvth motors, which are essentially identical, produce thrust to arm thz
weapon. In Deceinber 2001, the National Nuclear Security Administration (NNSA)
received Nuclear Weapons Council Standing and Safety Committee (NWCSSC) approval
to study the feasibility and cost of replacement options. In April 2003, ihe MWCSSC
approved the development of a new Spin ~ o c k e t h ~ o tbased
                                                          o r on Sandia's assei-tiolls that
test data collected between 1997 and 2002 showed the motors. due in largc: part to
"detrimental aging," were not performing according to specifications. Detrimental aging
occurs when a component's age prevents it from perfo~mingto meet military
requirements. The first production unit for this refurbishment effort 1s scheduled to be
completed in December 2006, at an estimated overall project cost of about $60 rnilllcn.

NNSA's 6.X process for managing refurbishrne~itsrequires the examination of various
design options and their cost impacts before proceeding to the development-engineering
phase. Pursuant to the 6.X process, a rationale for replacing components is to be
supported by test evidence indicating weapon defects and aging trends. In ~ r d e tor be
used as part of a justification, test results must be obtained under "War Reserve"
conditions, that is, conditions similar to those experienced in wartime (e.g., climate
factors such as temperature). Furthermore, refurbishments are to be supported by
evidence indicating the cause and impact of any reported anomalies.

The Office of Inspector General received allegations raising serious questions concerning
the Department of Energy's decision to proceed with the B6 1 Spin Rocket Motor project.
As a consequence, we initiated this audit to evaluate the Department conclusion about the
performance of the motor.

RESULTS OF ALDIT

Based on reported test anomalies, coupled with the fact that some versions of the Spin
Rocket Motor had been in use for over 30 years, we concluded that there was a
reasonable basis to be concerned about the aging and future performance of the motor.
However, thc Depal-tment did not have conclusive information on the cause and i~iipactof
ohscr\~ecltest a~nomalicsnor o f thc cost of ultcl-native options, 170th of \iIiich M,el-enceded
                                      --
                                   . , .,   .

                                        1 ' '
                                                i   '   , '   ,   . .
                                                                   i    ,   I , ,   $1,   I   8   , :.,   ,. :
to prioritize the development of a new motor in the context of competing weapons
development requirements. The lack of this information placed the decision to proceed
with development of a new Spin Rocket Motor at odds with the operating principles
promulgated in NNSA's 6.X procedures.

Moreover, independent reviews conducted in 2002 suggested a range of expert opinion
and different courses of action regarding motor aging and test anomalies. For example:

        One review observed that it would be "uncomfortable" with delaying replacement
        due to observed component aging and test anomalies; while,

        Another review concluded that observed anomalies were not part of structured
        tests under War Reserve conditions and recommended that NNSA perform a
        Significant Finding Investigation to investigate the motor's performance and
        identify any aging concerns that would warrant replacing the motor.

While the suggested investigation was initiated, it did not begin until after the
development of a new motor was approved and work commenced. The Significant
Finding Investigation had not been completed as of the time of our audit. However,
preliminary data from ongoing investigations did not evidence detrimental aging or
performance decrements in the existing Spin Rocket Motor. Further, Sandia's cost
estimates and assumptions used to support the decision to develop a new motor rather
than to examine other options, such as refurbishing the existing motor, were not fully
supported.

We found that NNSA had not adequately validated key Spin Rocket Motor data provided
by Sandia prior to approval of the new project. One senior NNSA weapons program
official acknowledged that, due to staff reductions in the NNSA program, the information
presented by Sandia was accepted without question and had not been validated.

During the course of the audit, Sandia and NNSA officials advised us that there were
other concerns, such as spin rate issues and the time it would take to develop a new
motor, that prompted the need for the project when it was approved. While we
recognized that the age of the Spin Rocket Motor in and of itself may have provided a
reasonable basis to be concerned about the performance of the existing motor, the project
was approved before problems were fully investigated for cause and effect and before the
cost impact of various options was fully evaluated. As a result, it was unclear:
(i) whether the Spin Rocket Motor replacement project represented the highest and best
use of the Department's finite weapons refurbishment budget; and, (ii) how the motor
replacement project compared in terms of priority to other weapons refurbishment
projects. In contrast to the Spin Rocket Motor, a Sandia official told us that at least one
other project had been fully investigated, had defined causes for the anomalies, had been
subjected to a full resource evaluation, and was not receiving the support needed for
refurbishment.

Consequently, we made several recommendations to ensure that future refurbishment
prolects are managed in accordance with NNSA's 6.X policy, specifically to ensure that
such prcqects are justified and supported based on analyses of refurbishment options and
valitlatccl cost data.
MANAGEMENT REACTION

Management did not agree with the finding but generally concurred with the
rccommendations. Management emphasized that the B61 Spin Rocket Motor
replacement project was approved through the joint NNSADepartment of Defense
NNSA Phase 6.X process and was a follow-on, long-tenn solution to a stockpile problem.
While it acknowledged there was no evidence to indicate an immediate performance
impact, management stated there was sufficient concern with aging, in combination with
motor margins, to justify the prudent course to replace the motor. Management's
verbatim comments are included in Appendix 5.

While the refurbishment decision was based on collaborative efforts between NNSA and
the Department of Defense, we found that the 6.X process was not completely followed.
Specifically, test evidence provided in support of the rcfurbishrnent had not been
obtained under approved test protocols, i.e., War Reserve conditions; investigations of
the cause and impact of test anomalies had not completzd before initiating development
of a new motor; and, documentation was not available to support Sandia's determination
that building a new motor was the less costly option. With regard to concerns about
aging and margins, as indicated in the audit report, a number of tests observed no
performancc degradation due to aging and found that the motors met expectations and
continued to perform within margins. This included tests specifically designed to predict
the effects of aging on weapons componcnts. Consequently, information providcd to
NNSA and Depai-tlnent of Defense officials, which was the basis for the decision to
refurbish the motor, was not complete. While there is no assurance of the final outcome,
we continue to believe that, prior to malung the decision to initiate the project,
responsiblc officials shnirld t?ave had the benefit of tliz full r a ~ g eof information called
for in the 6.X process. Had that been the case, any decision regarding the future of the
Spin Rocket Motor would have been fully documented, eliminating any controversy.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Dircctor, Policy and Internal Controls Management, NA-66
